     PEACE CORPS
OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS
  APRIL 1, 2006 – SEPTEMBER 30, 2006
Cover: Peace Corps Volunteer Callie Sorensen with deaf students in Kenya.
                PEACE CORPS

    OFFICE OF INSPECTOR GENERAL

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
experience a service that meets the needs of the people in their
countries of service, return to the U.S. with knowledge and respect
for the people and customs of those countries, and share their
knowledge and caring with those they touch in their lives as citizens
of the United States.




      SEMIANNUAL REPORT TO CONGRESS
          APRIL 1, 2006 – SEPTEMBER 30, 2006
                                                         TABLE OF CONTENTS

HIGHLIGHTS FROM THIS REPORTING PERIOD ....................................................... 1
Message from the Inspector General .............................................................................................................. 1

MANAGEMENT AND ADMINISTRATION .................................................................. 3
Agency Context.............................................................................................................................................. 3
OIG Staffing ................................................................................................................................................... 3

ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY AND OTHERS .......... 4
Peace Corps Best Practices in Programs Study .............................................................................................. 4
Corrective Actions for PC/South Africa......................................................................................................... 4
President’s Emergency Plan for AIDS Relief Expenditures........................................................................... 5
Imprest Fund Concerns................................................................................................................................... 5
Department of Homeland Security ................................................................................................................. 5

AUDITS AND PROGRAM EVALUATIONS .................................................................. 7
Overview ........................................................................................................................................................ 7
Summary of Audits and Evaluations .............................................................................................................. 8
  Peace Corps Fiscal Year 2006 Financial Statement Audit......................................................................... 8
  Review of the Agency’s Federal Information Security Program............................................................... 8
  Benin: Audit .............................................................................................................................................. 9
  Dominican Republic: Audit ....................................................................................................................... 9
  Federated States of Micronesia and the Republic of Palau: Audit........................................................... 10
  Mid-Atlantic Regional Recruitment Office: Audit .................................................................................. 11
  Romania: Audit........................................................................................................................................ 11
  Travel Policies and Procedures: Audit..................................................................................................... 12
  Turkmenistan: Audit................................................................................................................................ 13
  East Timor: Follow-up Audit................................................................................................................... 13
  Zambia: Audit and Program Evaluation .................................................................................................. 13
  Botswana: Program Evaluation ............................................................................................................... 15
Best Practices: Case Studies ......................................................................................................................... 15
  Counterparts Report: Best Practices Study .............................................................................................. 16
  Georgia: Best Practices Study.................................................................................................................. 17
  Honduras: Best Practices Study............................................................................................................... 17
  Malawi: Best Practices Study .................................................................................................................. 18
  Mauritania: Best Practices Study............................................................................................................. 19
  Niger: Best Practices Study ..................................................................................................................... 20
  Panama: Best Practices Study.................................................................................................................. 20
  Paraguay: Best Practices Study................................................................................................................ 21
  Philippines: Best Practices Study ............................................................................................................ 22
  Ukraine: Best Practices Study.................................................................................................................. 23
INVESTIGATIONS ......................................................................................................... 24
Overview ...................................................................................................................................................... 24
OIG Investigations of Federal Employees’ Compensation Act Recipients .................................................. 25
Violent Crimes Against Volunteers.............................................................................................................. 25
Closed Cases of Violent Crime Against Volunteers..................................................................................... 26
Pending Cases of Violent Crime Against Volunteers................................................................................... 28
Title 18 Criminal and Other Investigations Conducted ................................................................................ 29
   Investigations Leading to Disposition ..................................................................................................... 29
   Pending Investigations............................................................................................................................. 31

TABLES ........................................................................................................................... 32
TABLE 1: List of Reports: Audits, Evaluations and Inspections ................................................................. 32
TABLE 2: Reports Issued with Costs Questioned or Funds Put to Better Use ............................................ 33
TABLE 3: Status of Reports Issued by OIG with Questioned Costs............................................................ 34
TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use.................................................. 35
TABLE 5: Reports with Recommendations on which Corrective Action has not been Completed............. 36
TABLE 6: Summary of Investigative Activity............................................................................................. 37
TABLE 7: Summary of Hotline and Other Complaints ............................................................................... 38
TABLE 8: References to Reporting Requirements of the Inspector General Act ........................................ 39
HIGHLIGHTS FROM THIS REPORTING PERIOD

                        MESSAGE FROM THE INSPECTOR GENERAL

This is my first full reporting period since being appointed Inspector General for the
Peace Corps on February 5, 2006. It has been a very eventful six months with numerous
noteworthy accomplishments.

Our work during this reporting period has resulted in significant operational benefit to the
Peace Corps. Our efforts have been directed at increasing the efficiency and quality of
Peace Corps’ operations and combating actual or potential occurrences of waste, fraud,
and abuse of Government funds and other contributed resources.

Our auditors completed audits of six Peace Corps posts: Benin, Dominican Republic, the
Federated States of Micronesia, Romania, Turkmenistan, and East Timor. In addition,
we audited the management and operations of the Mid-Atlantic Recruitment Office, the
first in a series of audits of the Peace Corps Regional Recruitment Offices that the Office
of Inspector General (OIG) intends to perform. We also audited the agency’s travel
policies and procedures, finding significant vulnerabilities and concerns, which has led to
a revamping of the Peace Corps’ travel regulations and guidelines. Further, during this
reporting period, we initiated the annual audit of Peace Corps’ financial statements as
required by the Accountability of Tax Dollars Act, and intend to issue the report on
November 15, 2006 as mandated by the Office of Management and Budget.

During this reporting period, our evaluators concluded their landmark programming
study in which they traveled to high performing Peace Corps posts to assess how some of
the agency’s best programs are designed, managed, and implemented. This office issued
10 reports to the agency. Nine of the reports focused on the following countries – Niger,
Malawi, Mauritania, Panama, Paraguay, Honduras, Georgia, Ukraine, and the Philippines
– and the tenth report reviewed Peace Corps’ relationship with Volunteers’ counterparts
in Honduras, Panama, and Paraguay.

The evaluators also conducted program evaluations at Peace Corps posts in two African
countries, Zambia and Botswana. The reports identified opportunities for improvement
in programming and training and offered recommendations to address concerns found at
the posts.

During the upcoming reporting period, the evaluators will begin a comprehensive survey
of the safety and security measures implemented in the agency over the past few years.
This survey will involve trips to ten overseas posts and conclude with a comprehensive
report.

Our investigators have also had numerous noteworthy accomplishments during this
reporting period. OIG investigators secured several significant prosecutions in foreign


Semiannual Report to Congress      April 1, 2006 to September 30, 2006                     1
jurisdictions against perpetrators of attacks, robberies, rapes and other sexual assaults
against Peace Corps Volunteers. In addition, a number of criminal investigations led to
disciplinary actions, resignations, restitution and convictions. Finally, significant
progress has been achieved in the OIG’s continuing investigation of fraud and abuse in
Federal Employees’ Compensation Act (FECA) claims brought by former Peace Corps
Volunteers and staff members. The OIG has procured an electronic case management
system to coordinate the FECA-related cases, and has embarked upon an innovative
strategy to identify FECA claimants who have been unlawfully receiving benefits, which
has already yielded significant monetary results.

The accomplishments of the OIG have been enhanced by the support of the Peace Corps
Director, management, and employees. I look forward to continuing this productive and
professional working relationship as we continue to help Peace Corps meet its important
challenges.




                                            H. David Kotz
                                            Inspector General
H.
                                         H. DA




2                                                      Peace Corps Office of Inspector General
         MANAGEMENT AND ADMINISTRATION

                                   AGENCY CONTEXT

At the end of FY 2006, 7,749 Peace Corps Volunteers and Trainees were serving in 73
countries at 67 posts. This total includes: 111 Volunteers and Trainees funded by the
President’s Emergency Plan for AIDS Relief working on HIV/AIDS projects in nine
countries; 35 Crisis Corps Volunteers serving overseas in short-term assignments in 11
countries; and 10 Volunteers serving in Thailand on tsunami relief efforts funded through
an inter-agency agreement with the U.S. Agency for International Development.

The Volunteers and their programs are supported by 891 American direct hire staff—196
overseas, 120 in the regional recruiting offices, and the remaining 575 in headquarters.
Approximately 2,000 locally hired personnel complete post staffing. The Peace Corps
also has corporate contracts domestically and overseas, principally for guard services and
training, and hires expert consultants, largely for training and financial management.


                                      OIG STAFFING

During the reporting period, the Office of Inspector General filled several critical
positions, including the position of Assistant Inspector General (AIG) for Investigations.
The new AIG for Investigations, Geoffrey Johnson, joined the OIG from the U.S.
Department of the Treasury, Office of Inspector General, where he served as a Senior
Special Agent, and has experience with the Offices of Inspector General at both the U.S.
Department of Commerce and the U.S. Department of State. He received numerous
awards and citations during his distinguished career prior to joining our office, including
the Silver Award from the U.S. Department of Commerce for his inspection and
investigation work, the Franklin Award from the U.S. Department of State on three
separate occasions for conducting sensitive and critical investigations, the Bronze Award
from the Department of Commerce for a 1996 inspection, and numerous letters of
commendation from the State Department and the Library of Congress. We also filled a
criminal investigator position during the reporting period, giving Mr. Johnson four
investigators under his direction.

In addition, we added two experienced and highly-regarded evaluators during this
reporting period, having lost one evaluator to retirement. Also, we replaced an outgoing
technical audit manager with an experienced auditor with substantial OIG experience and
have finalized the selections of both a new Assistant Inspector General for Audits and a
new auditor. We are presently recruiting to fill a vacant administrative position.

Our long-serving and invaluable Deputy Inspector General (and former Acting Inspector
General) Allan Gall retired during this reporting period; although he has kindly agreed to
stay on as an expert/consultant. Finally, our IG counsel is currently on detail with the
U.S. Department of Treasury.


Semiannual Report to Congress      April 1, 2006 to September 30, 2006                    3
          ADVICE AND ASSISTANCE PROVIDED
            TO THE AGENCY AND OTHERS

During this reporting period, we provided advice to management on a number of serious
issues that were brought to our attention. This advice was conveyed through briefings
and meetings with the Director of the agency and other senior-level Peace Corps officials.
We also acted upon a request from the Office of Inspector General of the Department of
Homeland Security (DHS/OIG) to review the role of the Peace Corps in providing
disaster and relief assistance in the aftermaths of Hurricanes Katrina and Rita.


                 PEACE CORPS BEST PRACTICES IN PROGRAMS STUDY

In April 2006, we met with the agency Director to report our preliminary findings of the
OIG evaluators’ landmark programming study. Our OIG evaluators interviewed staff and
Volunteers in nine high performing posts to determine the best practices that contribute to
effective programming. We advised the Director on our initial assessment of the Peace
Corps programs in nine countries: Niger, Malawi, Mauritania, Panama, Paraguay,
Honduras, Georgia, Ukraine, and the Philippines. We emphasized the extent to which the
overall quality of the programs depended on the leadership of the country director and
described the qualities of the country directors at these high-performing posts that were
integral to their superior levels of performance.

The Director stated that he would factor these qualities into the agency’s recruitment of
country directors. At the request of the Director, in June 2006, we provided to the
agency’s Chief of the Office of Executive Selection and Support, a list of traits of high-
performing country directors, which he used in connection with the agency’s country
director recruitment efforts.


                     CORRECTIVE ACTIONS FOR PC/SOUTH AFRICA

In April 2006, following an OIG evaluation team’s visit to South Africa, we met with the
Regional Director and the Chief of Regional Operations for the Africa region to discuss
reports made by PC/South Africa staff members that the country director had engaged in
disrespectful and unfair treatment and unprofessional behavior. Subsequently, the
Regional Director traveled to South Africa and met with all PC/South Africa staff.

The Regional Director has informed the OIG in a written memorandum of the steps he
has directed the PC/South Africa management and staff to take to resolve the issues
raised by the OIG. The Regional Director also has concurred with the OIG
recommendation that the country director submit quarterly reports to the Regional
Director on the corrective actions taken to address these issues.


4                                                        Peace Corps Office of Inspector General
           PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF EXPENDITURES

In May 2006, we met with the Agency’s AIDS Relief Coordinator and Africa regional
office headquarters staff regarding the OIG’s concerns about the use of resources
provided by the President’s Emergency Plan for AIDS Relief (PEPFAR). The OIG
advised management that PEPFAR funds were being spent in some Peace Corps posts,
particularly Zambia, on activities that were not identified in the country operating plan
(COP). The Peace Corps has an agreement with the Department of State’s Office of the
U.S. Global AIDS Coordinator (O/GAC) that all activities carried out by Peace Corps
with PEPFAR funds would be approved in the COP. The Peace Corps AIDS Relief
Coordinator reviewed our concerns and pledged continued efforts to provide clear
guidance to country directors receiving PEPFAR funding of the restrictions regarding the
use of those funds.

PC/Mozambique reimbursed $7,900 to the FY 2004 PEPFAR account for activities not
included in their COP and reprogrammed an additional $53,000 of operational costs.
PC/Zambia reimbursed $27,633 to the FY 2004 PEPFAR account for purchases not
authorized by the COP.


                                IMPREST FUND CONCERNS

In June 2006, the IG and OIG auditors met with the Chief Financial Officer (CFO) and
members of his senior staff to express our concerns regarding imprest fund issues at
several overseas posts, specifically PC/Zambia and PC/Uganda. PC/Zambia had reported
an imprest fund loss of approximately $70,000 to headquarters. PC/Uganda’s cash
reconciliations had been out of balance for an extended period of time. The CFO
informed us that his staff was working with post management to get the last seven posts
(including Zambia and Uganda) “certified” and thereby automated and that he would
follow up with the posts and assist in resolving these matters. In September 2006, we
performed follow-up audit reviews of PC/Zambia and PC/Uganda. These reports will be
included in our next Semiannual Report to Congress.


                          DEPARTMENT OF HOMELAND SECURITY

At the request of the Department of Homeland Security’s Office of Inspector General
(DHS/OIG), our office reviewed the Peace Corps’ role in providing disaster and relief
assistance in the aftermaths of Hurricanes Katrina and Rita. This was the first time in the
agency’s history that Volunteers served domestically. DHS/OIG asked us to provide
them with a description of the agency’s assistance and expenditures funded by the
Federal Emergency Management Agency (FEMA). Our response to DHS/OIG included
the results of our review.




Semiannual Report to Congress      April 1, 2006 to September 30, 2006                    5
FEMA requested assistance from the Peace Corps under two mission assignments and
obligated more than $5 million to support their request. The mission assignments
allowed for Peace Corps “to provide up to 300 Crisis Corps Volunteers and/or other staff
for FEMA disaster and relief functions including individual assistance and community
relations functions for Hurricane Katrina disaster victims” and “to provide up to 100
Crisis Corps Volunteers for FEMA disaster and relief functions . . . for Hurricane Rita
disaster victims.” Peace Corps provided a total of 272 Crisis Corps Volunteers: 247 and
25, respectively, for Hurricane Katrina and Hurricane Rita-related assistance during the
period September 8, 2005 – November 15, 2005. Crisis Corps Volunteers were asked to
make a thirty-day minimum commitment, with an opportunity to extend up to an
additional 30 days. Seventy-three of the 272 Crisis Corps Volunteers (27%) chose to
extend.

As of our August 25, 2006 response to DHS/OIG, two submissions were made to FEMA
by the agency for reimbursement of expenditures made. The first, in the amount of
$546,985, was reviewed and approved by FEMA. The second, in the amount of
$1,963,919, is in the process of review by FEMA.




6                                                      Peace Corps Office of Inspector General
         AUDITS AND PROGRAM EVALUATIONS
                                        OVERVIEW

The Peace Corps’ OIG focuses principally on the programs, financial and administrative
operations, and staff support that sustain Peace Corps Volunteers serving around the
world. We accomplish this through audits and evaluations of the agency’s posts overseas
and its functions in headquarters and domestic recruiting offices.

Both individual staff members and multi-disciplined teams carry out these reviews.
Whenever the work is by a team, we publish a single, combined report of findings and
recommendations. For some highly technical audits, we also contract with firms and
individual experts.

Audits examine operations and financial transactions to ensure that good management
practices are being followed and that resources are adequately protected in accordance
with laws and regulations. Our audits are conducted in accordance with generally
accepted government auditing standards issued by the Comptroller General of the United
States.

Most of our audits focus on the operations and management of Peace Corps’ overseas
posts, which include a review of financial and administrative practices and the safety and
security of persons and property. We also conduct audits of specific headquarters and
regional activities, as well as contract and follow-up audits, as needed. In addition, the
Accountability of Tax Dollars Act provides the OIG with the responsibility for the annual
audit of Peace Corps’ financial statements. Furthermore, the Federal Information
Security Management Act specifies that the OIG annually review the information
security program of the agency, which is part of our auditors’ responsibilities.

Program Evaluations review the operation and administration of a specific unit of the
Peace Corps or may involve a limited review of a particular problem, issue, or function.

Most evaluations are of overseas posts and provide management with a comprehensive
assessment of how overseas programs are functioning. This includes a review of the
Volunteers’ sites and assignments, their integration into their communities, the quality of
their training, the quality of the support provided to them, and the adequacy of the post’s
administrative infrastructure to manage the program. Evaluations focus particularly on
the effectiveness, satisfaction, and well-being of the Volunteers, including their housing,
health care, and safety. Evaluators issue a survey to all Volunteers in country, interview
a representative sample of one-third or more of the Volunteers at their sites, and
interview all available Peace Corps staff and some of the Volunteers’ co-workers and
supervisors.




Semiannual Report to Congress      April 1, 2006 to September 30, 2006                     7
Post evaluations that do not accompany an audit may include a limited review of the
post’s financial and administrative practices, and compliance with agency rules and
regulations on these matters. Evaluations may also include follow-up on the findings of a
previous program evaluation and a limited follow-up on previous audit recommendations.


                       SUMMARY OF AUDITS AND EVALUATIONS


              Peace Corps Fiscal Year 2006 Financial Statement Audit

During this reporting period, we extended our contract option with an independent
accounting firm to conduct the audit of the Peace Corps’ fiscal year 2006 financial
statements. The audit is in progress and we intend to issue the report prior to the
mandated reporting date of November 15, 2006, as established by the Office of Budget
and Management. Details of this audit will be included in the next Semiannual Report.


           Review of the Agency’s Federal Information Security Program

The Federal Information Security Act (FISMA) requires each federal agency to establish
security protections and a program to secure its information systems from unauthorized
access, use, disclosure, modification and other harmful impacts, by using specific
guidelines established by the National Institute of Standards and Technology (NIST). In
addition, FISMA requires the OIG to review the security program annually. Because the
Office of Budget and Management (OMB) is required to report to Congress on the
progress made by Federal agencies as a whole, it has developed a data collecting process
which combines reporting from each Federal agency and their respective OIGs to
measure the progress of developing and institutionalizing each security program.

In May 2006, we issued the following two FISMA-related items: (1) a report on the
“Evaluation of Peace Corps FISMA for FY 2005,” and (2) a memorandum transmitting
the results of a separate review initiated in February 2006. Both products were based on
the work of an independent audit firm under the oversight of the OIG.

The FY 2005 FISMA evaluation was our first comprehensive assessment on the
effectiveness of the Chief Information Officer’s oversight of the Peace Corps’
information security program. We evaluated ten primary security activities, provided a
baseline for OMB reporting, and identified control deficiencies that could expose Peace
Corps systems to unauthorized access and result in the potential loss and/or compromised
integrity of data. Seven deficiencies are detailed in the report with corresponding
recommendations to strengthen these weaknesses.

One of those findings, the absence of an inventory, was addressed shortly after the
evaluation, leading to additional audit work to validate the adequacy and completeness of
the Peace Corps’ systems inventory and the issuing of a memorandum. We were in


8                                                      Peace Corps Office of Inspector General
general agreement with the process used by the agency, which was consistent with the
requirements of FISMA and NIST standards. However, we requested the agency to
notify the OIG on an annual basis of any changes made to the systems and inventory to
reconfirm our understanding and general agreement with the inventory as it is modified.


                                       Benin: Audit

We conducted an audit of Peace Corps/Benin October 17 - November 3, 2005. The
Peace Corps began its program in Benin in 1968. At the time of our visit, 97 Volunteers
were working in four program sectors: rural community health, environmental action,
secondary education, and small business development.

Peace Corps/Benin’s financial and administrative operations did not comply with several
Peace Corps policies and federal regulations. Chief among them were the administrative
officer’s failure to implement the recommendations contained in our December 23, 2003
memorandum to the regional director that identified significant internal control
weaknesses. The post had incurred $12,600 in losses to its imprest fund and continued to
operate in a high risk environment. Also, the post did not collect approximately $44,000
in host country contributions from the Government of Benin for FY 2004 and FY 2005.
We expressed concern with the potential liability to the agency due to the post’s
realignment of some administrative responsibilities.

One implication of our audit of this post is that the Office of the Chief Financial Officer
and the Office of Acquisitions and Contract Management in headquarters were not
exercising adequate review and oversight of the documents submitted by overseas posts.
Some of the deficiencies we found should have been caught through the routine review of
required submissions from the post.

Management concurred with 39 of the 42 recommendations, partially concurred with two, and
did not concur with one recommendation. We have closed 37 recommendations and five
remain open.


                                Dominican Republic: Audit

We conducted an audit of Peace Corps/Dominican Republic August 1 – 26, 2005. Since
1962, over 3,500 Volunteers have served in the Dominican Republic. There were 137
Volunteers working in five projects at the time of our visit: business, education,
environment, youth development, and health.

We found a breakdown in internal controls at PC/Dominican Republic due to inadequate
supervision of the administrative staff by former country directors. The Peace Corps
bank accounts were not periodically reconciled; the country director had not overseen the
accounts. The administrative officer had opened checking accounts for Peace Corps
funds without first obtaining authorization to do so and opened them in his name and



Semiannual Report to Congress      April 1, 2006 to September 30, 2006                    9
without another co-signer. He had made personal and other unauthorized payments from
a Peace Corps account set up in his name and also had made deposits of personal funds to
this account. The administrative officer did not retain complete documentation to support
his use of the post’s credit card; some transactions appeared to be personal purchases. In
addition, he spent money for personal expenses from private grant funds for a
Volunteer’s project.

We also found the following concerns:
•    The cashier administered a Peace Corps bank account to make cash payments, rather
     than making the payments from the imprest fund.
•    Volunteers were permitted to use Peace Corps equipment and supplies for their
     projects.
•    Peace Corps property was given away to staff.
•    The administrative officer kept Volunteer property without documenting the
     transactions.

Finally, we found that the Office of Financial Policy and Cash Management in
headquarters had not adequately monitored the post’s financial transactions.

Management concurred with all 49 recommendations. At the end of the reporting period,
38 recommendations are closed and 11 remain open.


           Federated States of Micronesia and the Republic of Palau: Audit

We conducted an audit of Peace Corps/Federated States of Micronesia and the Republic
of Palau March 28 – April 14, 2006. The Peace Corps program began in the Federated
States of Micronesia in 1966. At the time of our visit, there were 44 Volunteers working
in two projects: Youth and Community Development and Natural Resources
Conservation and Development.

We found inadequate supervision of the cashier and failure to report known imprest fund
shortages. At the time of our audit, we documented a $5,207.57 shortage in the imprest
fund. Records indicated that the loss dated back to April 27, 2004. Imprest fund
verifications from that period up to the arrival of a new country director and a new
administrative officer were falsified to hide the loss. Staff in the Inter-America and
Pacific regional office in headquarters and in the Office of Financial Policy and Cash
Management were aware of the loss as early as May 2005. The loss was not reported to
the OIG.

In 2003, a prior shortage was documented in the amount of $277.54. The post’s records
indicate that a request was made to relieve the cashier of the responsibility for this loss.
We also identified $1,100.00 in duplicate payments during the period of the $5,207.57
loss. Further, the current cashier found a $798.58 shortfall in an advance that was made
to an alternate cashier when a reconciliation of an advance was conducted. We
established that all of these losses were attributable to the former cashier. The $798.58


10                                                        Peace Corps Office of Inspector General
shortfall took place while she was performing the duties of alternate cashier. She
resigned at the end of our audit.

Additional losses at the post included uncollected bills from staff who had left Peace
Corps employment.

Management concurred with 29 of our 31 recommendations, and we accepted their non-
concurrence with one recommendation. At the end of the reporting period, 19
recommendations are closed and 12 remain open.


                    Mid-Atlantic Regional Recruitment Office: Audit

We conducted an audit of the Mid-Atlantic regional recruitment office July 5 – August 3,
2006. The Mid-Atlantic regional recruitment office, located in Rosslyn, Virginia, is one
of the agency’s 11 domestic recruitment offices.

The Mid-Atlantic regional recruitment office’s financial and administrative operations
were, in general, operating effectively. However, areas for improvement included:
•   Travel vouchers not being prepared accurately nor processed in a timely fashion.
•   Control over vehicle usage being inadequate.
•   Property inventory records not being complete or accurate.

Management concurred with all 16 recommendations. At the end of the reporting period,
eight recommendations are closed and eight remain open.


                                    Romania: Audit

We conducted an audit of Peace Corps/Romania October 26 - November 17, 2005. The
Peace Corps initiated operations in December 1990. At the time of our review, 137
Volunteers were working in four projects: teaching English as a foreign language,
community economic development, environmental management and education, and
institutional development.

We found that PC/Romania generally complied with Peace Corps policies and federal
regulations. However, improvements were needed in procurement practices. The post
made payments to vendors from a special local currency account that the U.S. Disbursing
Officer had approved solely for making payments to Volunteers. The post made its
salary payments to personal services contractors by having the cashier cash the payment
check and distribute the salaries in cash.

We found that the post used an unapproved personal services contract template that did
not include benefits and excluded the country’s social security plan. The post’s drivers
were also paid for overtime at a rate reduced by withholding taxes, and the post did not



Semiannual Report to Congress     April 1, 2006 to September 30, 2006                      11
pay the government for the taxes that should have been withheld or the amount the
employer was to contribute. The unpaid taxes may represent a future liability for the
agency.

Management concurred with 37 of the 38 recommendations. We closed 33 recommendations
and five remain open.


                         Travel Policies and Procedures: Audit

We conducted an audit of Peace Corps travel policies and procedures October 26, 2005 –
February 21, 2006. Travel is an essential element in executing the Peace Corps’ mission.
The agency’s records showed total travel obligations for FY 2005 of $27,954,963 (paid
and unpaid as of September 30, 2005) submitted to the Office of Management and
Budget.

We found that the agency was not enforcing its travel policies and procedures. Our most
significant finding was that numerous recommendations that management had agreed to
implement from our 1992 report remained outstanding.

We found:
•    The Peace Corps Manual section 812, “Staff Travel,” was 20 years old and referred to
     sections in the Foreign Affairs Manual that no longer existed.
•    A list of approved signatories for travel authorizations and vouchers and detailed
     procedures for the review of travel vouchers did not exist.
•    Unused tickets, valued at approximately $25,000, which travelers had returned to the
     agency, had not been processed for reimbursement to the agency.
•    Some travel authorizations and vouchers were incomplete, some were erroneous, and
     some had been submitted late.
•    Travel vouchers from as far back as fiscal year 2002 remained unprocessed.
•    Director’s office staff had been approved to fly business class with an overnight
     stopover without appropriate justification.
•    No supervisory system was in place for reviewing the work of the voucher examiners.
•    Sato Travel’s database of passport holders’ identities improperly included social
     security numbers.

Management concurred with all 22 recommendations. At the end of the reporting period,
10 recommendations are closed and 12 remain open.




12                                                     Peace Corps Office of Inspector General
                                   Turkmenistan: Audit

We conducted an audit of Peace Corps/Turkmenistan March 6 - 24, 2006. The Peace
Corps began its program in Turkmenistan in 1993. At the time of our visit, 61 Volunteers
were working in two program sectors: English language instruction and Health.

Peace Corps/Turkmenistan’s financial and administrative operations were, in general,
operating effectively. However, areas of improvement were noted, including:
•   The post having an unauthorized bank account.
•   Vehicle sales not being managed properly.
•   Property inventory records being inaccurate.
•   International travel vouchers being inaccurate.
•   The post not collecting all of the host country contributions specified in the host
    country agreement.

Management concurred with all 20 recommendations. At the end of the reporting period,
18 recommendations are closed and two remain open.


                                East Timor: Follow-up Audit

During the period February 27 – March 3, 2006, we conducted a follow-up review to
our audit carried out August 22 – September 5, 2005. We reviewed management’s
compliance with the actions agreed upon for 26 of the 27 recommendations; one
recommendation was an unresolved non-concurrence.

The principal finding from our follow-up audit was the failure of the post to address the
weaknesses in its imprest fund operation. However, because operations at Peace
Corps/East Timor were suspended shortly after our follow-up, we closed all
recommendations except for those related to closing the post’s financial books.

At the end of the reporting period, 25 recommendations are closed and two remain open.


                         Zambia: Audit and Program Evaluation

We conducted an audit and program evaluation of Peace Corps/Zambia August
8 – 25, 2005. The audit included an examination of 2004 expenditures under the
President’s Emergency Plan for AIDS Relief (PEPFAR). In 2005, more than 150
Volunteers were promoting sustainable development through activities in agricultural and
natural resource management, health and sanitation, education, and HIV/AIDS
assistance.

Our audit findings included that the post had spent PEPFAR funds on basic post
operational costs not approved in the 2004 Country Operating Plan (COP) or the project



Semiannual Report to Congress       April 1, 2006 to September 30, 2006                   13
plan for the HIV/AIDS Assistance Project. We initially identified over $127,000 that
was spent on items not in the COP and upon receipt of additional documentation after our
visit to the post, the amount was revised to $73,420. In addition, the post used cash
advances to vendors from its imprest fund for many of its purchases. We found that, at
any given time, outstanding advances from the imprest fund averaged over $33,000—
more than half of the authorized fund level of $60,000. We also found cash payments
totaling nearly $16,000 for personal items that should not have been paid from
appropriated funds.

Our program evaluation concluded that the country director did not provide sufficient
leadership in programming, staff management, and financial oversight. In addition, staff
were reluctant to take their concerns to the country director, and their morale was low.
The post relied heavily on Volunteer Leaders to fulfill staff functions: technical support
to Volunteers, site selection, site development, policy enforcement, and relations with
host country agencies. This was in opposition to Peace Corps policy and undercut the
staff’s role and responsibilities. We found that this management approach had a long
history in PC/Zambia and we recommended a serious program management review. In
July 2006, the agency named a new country director to PC/Zambia.

We determined that PC/Zambia’s Rural Aquaculture Promotion project, which provides
farmers with income-generating opportunities through fish farming, is a well-designed
project that reaps visible benefits for the farmers in a relatively short amount of time.

The other projects, where site selection and development practices were not followed as
closely, grappled with uneven commitment from the host government, inconsistency in
local host readiness, and a lack of clarity of roles and responsibilities among staff,
Volunteers, and host country sponsors. We had serious concerns about the viability of
the education project and recommended that the post terminate this project.

Zambia’s vast territory and weak transport and communication infrastructure posed
challenges in ensuring Volunteer safety and security. In its February 2005 testing of the
Emergency Action Plan, it took the post 48 hours to reach a 95% response rate and one
week to hear from all of the 101 Volunteers in the testing pool. The OIG is also
concerned that the burden of contacting Volunteers fell heavily on the Volunteer Leaders.

Volunteers were generally satisfied with staff support except in the areas of technical and
financial/logistical matters. They received reimbursements late and sometimes used
personal funds to undertake special projects. In surveys and interviews, Volunteers in
three of the five projects reported that site visits by staff were infrequent, and where they
occurred, many were not useful.

The post did not adequately manage or integrate Crisis Corps Volunteers into program
activities. We found inadequate housing arrangements, outdated job descriptions, and a
failure to conduct adequate site and project development for Crisis Corps Volunteers.




14                                                        Peace Corps Office of Inspector General
Management concurred with 21 of the 25 recommendations, partially concurred with
three recommendations, and did not concur with one recommendation. At the end of the
reporting period, 21 recommendations are closed and four remain open.


                                Botswana: Program Evaluation

We conducted an evaluation of Peace Corps/Botswana February 25 – March 17, 2006.
The Peace Corps first established a program in Botswana in December 1966, two months
after it achieved independence from the United Kingdom. At the time of our visit, there
were 59 Volunteers in-country serving in four projects dedicated to assisting those with
HIV/AIDS.

We found a program recovering from prolonged staffing vacancies; but, currently with
effective leadership and productive Volunteers. The most serious findings were
inadequate emotional and technical support for the Volunteers and inadequate pre-service
and in-service training for the Volunteers.

Volunteers assigned to government agencies had structured and viable work assignments,
and the President’s Emergency Plan for AIDS Relief-funded Volunteers assigned to non-
government organizations (NGOs), who had been in the country for five months at the
time of our visit, said they too were finding meaningful work with their NGOs.

Support for Volunteers was lacking in several areas. Most important was the Volunteers’
mental health. Volunteers working with people living with HIV/AIDS have a critical
need for emotional support. Volunteers reported few site visits from staff and virtually
no feedback on their work. There was no support for on-going language learning at site,
nor was there adequate support forthcoming for work-related problems such as
misunderstandings between Volunteers and their host organizations.

The pre-service training for Volunteers, including language training, was also ineffective.
Technical training was overly theoretical and lacked practical application to the realities
of the Volunteers at their sites.

The region concurred with all 10 recommendations and all of them remain open.


                                BEST PRACTICES: CASE STUDIES

We conducted a study of best practices of Peace Corps programs and prepared case
studies of programs in nine countries.

The purpose of the study was to identify best practices that resulted in high quality
programs that prepare and place Volunteers in sites where they can be productive (the
agency’s first goal), provide a healthy cross-cultural exchange (goal two), and inspire
them to bring the world home (goal three).


Semiannual Report to Congress        April 1, 2006 to September 30, 2006                  15
In phase I of the study, OIG staff conducted extensive interviews with the staff at each
overseas post involved with designing and planning programs; training Volunteers;
developing sites; providing technical, medical, emotional, and administrative support to
Volunteers; and, managing the operational aspects of ensuring that these functions are
performed effectively. In phase II, we spoke with Volunteers about their experiences and
their perspectives on what the staff described.

Ten reports resulted from the study, the nine country case studies and a tenth report
reflecting the perspective of “counterparts,” the local people who are the primary contact
for the Volunteer in his/her community or host agency. These reports are summarized
below.


                       Counterparts Report: Best Practices Study

We spoke with people in local communities in Honduras, Panama, and Paraguay who had
worked with Volunteers on projects as their counterparts. We sought their perspective on
working with Peace Corps Volunteers. While this report reflected the voices and views
of counterparts in only three countries, the lessons they offered are universal.

The counterparts play key roles in the lives and work of the Volunteers. The counterparts
increase the effectiveness of the Volunteers by introducing them to people and by lending
the Volunteers validity and credibility in the community and within the host organization.
Counterparts are often responsible for Volunteers’ safety, physical and mental health, and
cultural integration. This is a difficult and demanding role. For the agency, finding good
counterparts, supervisors, and colleagues is challenging, but worth the effort because
every Volunteer and every Volunteer project benefits greatly from having a local human
partnership.

In terms of their perspective on the Volunteers’ contribution to the community or host
organization, counterparts spoke of the need for Volunteers to arrive with a purpose that
was clear to the Volunteers, the counterpart, and the local people. This was the most
important input to successful Volunteer service. The counterparts also made the
following points:
•    Volunteers need a local support network to help them with community integration
     and to facilitate their work.
•    Volunteers’ personal attributes play an important role in their ability to accomplish
     their assignment.
•    Volunteers in technical projects need appropriate skills.
•    Volunteers with local language skills and good communication skills are more
     effective.




16                                                        Peace Corps Office of Inspector General
                                Georgia: Best Practices Study

The staff of PC/Georgia has developed a successful program through attention to detail.
They have systems in place for site development, safety and security, and Volunteer
support that they are continuously evaluating and refining. Their commitment to make
PC/Georgia an even better program was evident to the Volunteers, who credited the hard
work and dedication of the staff for their success as Volunteers.

At the time of this study, there were 58 Volunteers in two programs, Teaching English as
a Foreign Language in secondary schools and the organizational, technical, and financial
development of non-government organizations.

The staff of PC/Georgia are also good problem solvers and tackle issues with a
combination of creativity and pragmatism. One example of this was their approach to
improving the quality of host organizations that request a Volunteer. They adopted a
marketing approach, using a variety of channels to let organizations and schools know
about PC/Georgia. They also designed a rigorous application process. Consequently,
demand for Volunteers exceeded supply and host organizations competed for Volunteers.
This competition led to higher quality applications, and to host organizations that were
better prepared to use the Volunteers productively.

Another example of the staff’s attention to detail was the workshops they held for
prospective host organizations, host families, and local police. In addition to providing
supervisors, families, and local police with important information about the Peace Corps
and the Volunteers, these workshops vested in host organizations, families, and the local
police a sense of responsibility for the safety and well-being of the Volunteers and their
success in their assignments.

Finally, PC/Georgia required that Volunteers live with host families for the first six
months and encouraged them to continue to do so throughout their service. Most
Volunteers chose to live with a family throughout their service. For many of them, the
opportunity to live with a Georgian family and to see Georgia and the world through their
eyes was an invaluable part of their Peace Corps experience. Being a member of a local
family also provided immediate acceptance in the community, validity for the
Volunteer’s work, access to resources, and help with secondary projects.


                                Honduras: Best Practices Study

PC/Honduras managed its large number of Volunteers (213 at the time of the study) by
systematizing its processes with a set of “tools.” Every task staff perform to carry out the
Peace Corps program—developing projects, training Volunteers, identifying sites and
counterparts, preparing sites, and supporting Volunteers—was guided by a tool in the
form of a written document, a handbook, a guideline, a detailed procedure, or a form.
These tools guide staff to assure that each detail, each required step, was followed,
documented, and completed. The tools assured consistency and thoroughness.



Semiannual Report to Congress        April 1, 2006 to September 30, 2006                 17
Of the post’s six projects (water and sanitation, protected areas management, youth
development, business development, municipal development, and HIV/AIDS prevention
and child survival), the study singled out the youth project for a thoroughness in site
selection and preparation.

The staff responsible for the youth project met prospective host organizations several
times before assigning a Volunteer. They identified and trained four counterparts at each
location where a Volunteer would be assigned to increase the likelihood that the
Volunteer would have an effective working relationship with local people. For all of
their projects, PC/Honduras’ strategy was to minimize the need for the Volunteer to be
the mobilizing force for a project. Instead, the staff identified a local NGO that was
already working in a community and had the Volunteer work through them. Another
strategy for ensuring that Volunteers were productive was to have Volunteers provide
technical training of local workers who, in turn, conducted the community outreach
aspect of the project.

From the Volunteers’ perspective, the attention to detail by staff translated into well-
designed project plans, sites where Volunteers were productive, and effective technical
and administrative support. The Volunteers singled out the water and sanitation and
health projects for a high level of productivity and Volunteer satisfaction. Their work
assignments, they reported, were clear and met critical needs of the communities.
Volunteers also worked in protected areas management, business development, municipal
development, and HIV/AIDS prevention and child survival.


                             Malawi: Best Practices Study

The leadership of the country director, a commitment to teamwork, close collaboration
with the Government of Malawi, targeted technical training, and Volunteer input were
five factors that contributed to the strength of the Peace Corps/Malawi post. The staff
credited the quality of their program to the country director’s commitment to open
communication and her participatory management style. One hundred and five
Volunteers were working in the following three projects: education, natural resources
management, and community health and HIV/AIDS.

The Peace Corps has a long history of close relations with government officials in
Malawi. The country director noted that “Peace Corps’ significant and positive historical
presence here has helped our programming efforts. The students who [were taught by]
Volunteers here in the past are now high-level government and NGO officials (the former
Vice President of Malawi was taught by Volunteers, and he was a Peace Corps language
trainer), and Peace Corps is now reaping the benefits of what they sowed in the past. Our
partners come forward to support us when needed . . . .” The Volunteers also reported
that they directly benefited in their assignments from these relationships.

The staff of PC/Malawi were technically well-qualified and had a commitment to
teamwork. They had worked for international development organizations and the



18                                                     Peace Corps Office of Inspector General
Government of Malawi in the fields in which Volunteers work. They participated in
practical training exercises for the Volunteers, which helped them to know the Volunteers
and make compatible site assignments. Their teamwork facilitated cross-sector
collaboration on projects that extended to the Volunteers assisting one another with
project activities across sectors.

The Volunteers were positive about what they have contributed and gained through this
experience. They credited their training, especially language and cross-cultural training,
as the foundation for their service. They have worked hard in their assignments and were
proud of their accomplishments, not only in working in a very difficult situation but
having made good friends in the process.


                                Mauritania: Best Practices Study

Mauritania hosts a very small number of international donor and development agencies.
Consequently, the Peace Corps has unusual visibility, and the Volunteers’ work is
significant in the context of foreign assistance to the development of Mauritania. The
Peace Corps is also the only U.S. aid program in Mauritania. Thus, the Volunteers are
“the face of America,” and they felt an obligation to gain respect professionally and
personally. At the time of this study, there were 88 Volunteers working in agroforestry
and environmental education, small enterprise development and communications
technology, health education, and English teaching.

Working in Mauritania is not easy. Physical conditions are challenging. It has a
conservative Muslim culture. It requires skill and effort to make friends and be accepted.
In particular, the Volunteers must have good facility in speaking the local language of the
site to which the Volunteer is assigned. The post placed a premium on language training.
Sites were identified and placements made soon after Volunteers arrived in country, so
that they could be trained in the appropriate local language. The staff monitored their
progress and offered tutoring for those who needed it.

In Mauritania, we found Peace Corps programs that met critical needs and were fully
supported by the government. Programming in PC/Mauritania was shaped by the
collaboration among Volunteers and facilitated by clustering Volunteers in nearby sites.
Volunteers from all projects participated in a national secondary project to promote girls’
education in a safe environment outside the schools where girls could advance their
skills. The Volunteers had set up twelve centers in regional capitals where they provided
tutoring and taught computer science and vocational skills. Peace Corps received formal
support from NGOs and informal but politically essential support from government
officials who attended functions at the centers.

The Volunteers reported a high degree of openness and communication between and
among staff and Volunteers in Mauritania. The Volunteers felt supported and valued by
the staff. We heard consistently that the quality of leadership of the country director and
staff was excellent. The staff were viewed as hard-working, talented, accessible, and



Semiannual Report to Congress         April 1, 2006 to September 30, 2006                19
attentive to the program and personal needs of the Volunteers. The staff made
extraordinary efforts in supporting the Volunteers in this country, where logistics and
transportation posed serious challenges.


                              Niger: Best Practices Study

In Niger, the Volunteers shared in the poverty of the people, the harshness of the climate,
the inadequacy of the physical infrastructure and even the scarcity of food. Niger ranks
at the bottom of almost every economic and human development index. Yet Peace Corps
Volunteers were thriving. At the time of this study, 119 Volunteers were working in
community and youth education, natural resources management, community health, and
agriculture. They spoke with pride and confidence about their contribution to the people
with whom they worked and lived; they were thankful for the openness of their Nigerien
friends and neighbors in accepting them. Above all, they valued the dedication of the
staff and their support for the Volunteers.

While PC/Niger staff fulfill all of the tasks that Peace Corps posts typically perform --
program design, site selection and preparation, training, and Volunteer support, their
attention to every detail makes the difference between an average and high quality
program. This included developing projects with feasible tasks, sites with a stake in what
the Volunteer was there to do, training that gave Volunteers the skills to do the
assignment, and support that made the Volunteers feel the staff and the Peace Corps
office were behind and beside them as partners in carrying out their work.

Peace Corps/Niger had a dedicated and experienced local staff with excellent relations
with the government and the NGOs. They found creative solutions to the logistical
barriers to Volunteer support in Niger posed by its poor communications infrastructure.
The Volunteers rated their support significantly higher than the average for Volunteers
around the world.

The country director had a profound impact on the staff and Volunteers. His empathy
and concern for the Volunteers was real, but, at the same time, he expected excellence
and professionalism from the Volunteers. For example, the country director raised the
language competency level requirement before Volunteers could be sworn in.


                             Panama: Best Practices Study

PC/Panama had a clear vision of its mission and role in the development of Panama.
This vision was transmitted to the Volunteers, to the staff, and to the public at every
opportunity, and two large posters immediately inside the office entrance prominently
displayed statements of mission, vision, and values. The staff had internalized the
mission statement and integrated it into what they do and how they do it. At the time of
our visit, 137 Volunteers were working in the following projects: sustainable agriculture




20                                                      Peace Corps Office of Inspector General
systems, community environmental conservation, environmental health, and community
economic development.

The mantra of the staff was to identify real jobs for Volunteers and place them with
effective partner organizations. The staff sought out local organizations with ongoing
projects in communities. The job of the Volunteer was to help the local organization
implement its project. Volunteers had clearly defined tasks and were able to use the
skills for which Peace Corps had either recruited or trained them.

PC/Panama staff used the expression “getting the right people on the bus” to describe
what the post does and how they do it. For the program, this metaphor meant:
•   Knowing where you are going (vision and mission).
•   Partnering with the right organizations.
•   Hiring the right staff to manage and support projects.
•   Training and supporting the Volunteers based on an understanding of what the
    Volunteers do and what it takes to be a Volunteer.

The Volunteers credited staff leadership with making PC/Panama effective and sustaining
Volunteers’ confidence in the management of PC/Panama as an organization. They
appreciated that the country director took input from the Volunteers seriously and
responded promptly to their concerns. The Volunteers also felt that their service had
been positively affected by the reputation of the agency, the widespread knowledge that
people have about PC/Panama, and its contributions to the country. Volunteers
appreciated working in projects with tangible outcomes that fulfilled critical needs in the
community.


                                Paraguay: Best Practices Study

There are approximately 200 Volunteers in Paraguay working in six project areas:
agroforestry extension, environmental education, early elementary education, rural health
and sanitation, rural economic development and agriculture, municipal service
development, and urban youth development.

One hallmark of PC/Paraguay was its training program. PC/Paraguay had developed a
successful pre-service training program by contracting a private company, CHP
International, and directing and monitoring their work through a detailed Description of
Work. The staff felt that this arrangement gave them both flexibility and control. The
Volunteers gave especially high marks to language and cross-cultural training. Trainees
whose work assignments required Guaraní, the national language of Paraguay, were able
to achieve reasonable proficiency in both Spanish and Guaraní. Volunteers also praised
training for its realism – the similarities between their training communities and
permanent sites helped them make smooth transitions from working with trainers to
working with their host organizations and counterparts.




Semiannual Report to Congress        April 1, 2006 to September 30, 2006                 21
The second hallmark was the geographic clustering of Volunteers in nuclei. The
Volunteers saw nuclei as serving at least two purposes. First, having other Volunteers
nearby ensured that technical and social support was never far away. This was especially
important for new Volunteers and Volunteers who lived far from Asunción, the capital of
Paraguay. Second, the nuclei served a programming function. Each nuclei contained
Volunteers from different sectors, allowing Volunteers to combine their different skills
and technical knowledge around a single, but multi-faceted, project. The staff saw nuclei
as facilitating their support to Volunteers and enhancing the potential for impact on a
local community.

PC/Paraguay used a two-prong approach to monitor, evaluate, and support Volunteer
projects: the Work Plan and the Progress Report. In the work plan, submitted quarterly,
the Volunteer and his/her community contact or counterpart laid out what they intended
to accomplish in the subsequent four months. In the progress report, they reported their
accomplishments. The Volunteer prepared the work plan and progress report, but the
Volunteer's main counterpart had to sign it. The document was the official medium for
the counterpart to be abreast of the activities of the Volunteer, some of which may not be
with the counterpart’s organization but with other community counterparts or groups.


                            Philippines: Best Practices Study

The Philippine staff take pride in their work and in what they feel is a cultural propensity
to work hard. “Filipinos want to do a good job,” said one. The staff’s commitment to the
work and well-being of the Volunteers contributes to the effectiveness of programming
and training at Peace Corps/Philippines.

To harness this energy and commitment, the post recently reorganized staff functions to
provide more effective support to the 138 Volunteers, located on 16 islands and working
on five projects: business advising for youth; basic education for technical assistance;
small islands development and water and sanitation; community services education; and
community-based conservation of important biodiversity areas. The reorganization
integrated regional (geographic) responsibility, administrative support, and technical
expertise. Program staff now support a group of Volunteers within a region rather than
within a single project. They work closely as a team and coordinate on identifying and
developing sites, training the Volunteers, and supporting them in their assignments.

The staff were also committed to listening to the Volunteers. They took the views of the
Volunteers seriously and gave the Volunteers a voice in PC/Philippines through a
quarterly Volunteer Forum in which staff and Volunteers discussed the needs of the
Volunteers and identified solutions.

The close oversight by the Government of the Philippines over all foreign agency
volunteer programs was also an important factor in shaping Peace Corps/Philippines’
operations. The Philippines established a government agency that monitors, approves,
and coordinates all foreign volunteer-based assistance from international NGOs and



22                                                       Peace Corps Office of Inspector General
foreign governments. This agency approves local agencies as partners, local agency
requests for Volunteers, and sites. It is involved in training and requires quarterly and
end-of-service reports from Volunteers. As a result, staff completed site development
well in advance to meet the deadlines of the approval process.

While the Volunteers appreciated the work of the staff, ultimately, they saw their
experience defined by the culture of the Philippines—warmth, hospitality, and acceptance
from the children in their neighborhood to the staff at the Peace Corps office.


                                Ukraine: Best Practices Study

The PC/Ukraine staff built a quality program by excelling in three areas. The first and
most important was in paying attention to the Volunteers’ assignments, training, and
support. The responsiveness of the staff to the needs of the Volunteers helped the
Volunteers feel valued as individuals—a particularly impressive achievement for a post
with approximately 350 Volunteers. Peace Corps/Ukraine is the agency’s largest
program.

One mechanism the staff used to keep the focus on the Volunteers is a Volunteer
Advisory Council (VAC). The VAC served as a sounding board and mechanism for
giving Volunteer feedback on policies and staff performance by conducting surveys of
Volunteer satisfaction. The Volunteers appreciated that the staff sought and acted on
feedback from the Volunteer Advisory Council. One Volunteer commented, “It would be
easy to take the staff for granted --until you realize that the excellent service they give me
is multiplied 350 times. Amazingly, it works.”

For the country director, paying attention to the Volunteers meant first and foremost that
every Volunteer was placed in a meaningful work assignment: “I believe that Volunteers
want to make a contribution. We owe every Volunteer a good job, and in turn, they owe
Peace Corps responsible behavior and achievement.”

The second area in which the staff excelled was in maximizing efficiency by using
technology to enhance collaboration, especially on site development and Volunteer
support. The staff support a large number of Volunteers located over an extensive
geographical area and working in four projects: business development, environmental
protection, youth development, and teaching English. Configuring the organization of
the staff to the realities of Ukraine, the country director reorganized the program staff by
geographic coverage and sector expertise. The regional managers provide overall support
to Volunteers in a region while the sector specialists provide technical support to all
Volunteers within a project. This division of labor has resulted in more efficient and
effective support for the Volunteers.

The third area of excellence was the emphasis on striving for continuous improvement—
accepting that the job is always a work in progress, that quality can always be improved,
and that laurels rested upon quickly lose their luster.



Semiannual Report to Congress       April 1, 2006 to September 30, 2006                     23
                             INVESTIGATIONS
                                          OVERVIEW

Investigations respond to allegations of criminal wrongdoing, fraud, and abuse that come
to us through audits and evaluations, hotline complaints, and Volunteers, Trainees, staff,
and the public. We also investigate ethics and conflicts of interest violations. The Office
of Inspector General is charged by law with the conduct of criminal investigations. The
Inspector General is authorized by statute to develop policy for the conduct of
investigations, and to coordinate and supervise both domestic and overseas
investigations. Investigators work with other offices within the agency or with other
agencies, including law enforcement officials and public prosecutors, as appropriate.

With over 7,000 Volunteers in more than 70 countries, incidents of crime against them
are inevitable. Part of the agency’s support to Volunteers who become victims is a
protocol under which country directors report incidents of violent crimes to the OIG. The
OIG manages and coordinates the agency’s part of the investigative and prosecution
process from the initial incident to the closing of the case. We coordinate the
investigation of the crimes with the country director, headquarters offices, the State
Department’s Office of Diplomatic Security Services, and the embassy’s Regional
Security Officer (RSO). We work with the RSO to develop the best evidence for local
trial. This might include preparation of witness statements, developing photo spreads, or
obtaining DNA analysis. As needed, we accompany witnesses back to the country where
the crime occurred for lineups, depositions, and trial. We consult with the Department of
Justice’s Office of Foreign Litigation and receive assistance from the Federal Bureau of
Investigations (FBI), including the forensic laboratory at Quantico and the overseas legal
attachés, the Armed Forces Institute of Pathology at the Walter Reed Army Medical
Center, and the Secret Service Forensic Services Division. Our role in coordinating the
investigation and assisting in the prosecution of violent crimes against Peace Corps
Volunteers brings a high volume of work but also gives us the opportunity to help curb
violence against Peace Corps Volunteers.

The OIG operates a 24/7 duty officer system for country directors to make direct and
immediate contact with criminal investigators in this office to coordinate the response to
violent crimes against Volunteers and assist the victims of crime. Early intervention and
coordinated support has enhanced the quality of overseas investigations. We may, in
limited circumstances, also arrange for a local lawyer to be hired to help the prosecutor in
making the case against the perpetrator of the crime.

The 2004 “Equal Access to Justice Act” and other Congressional enactments, as well as
the Attorney General’s guidance, provide a prescriptive framework for the OIG’s victim
advocacy responsibilities and authority.




24                                                       Peace Corps Office of Inspector General
  OIG INVESTIGATIONS OF FEDERAL EMPLOYEES’ COMPENSATION ACT RECIPIENTS

In an effort to maintain the integrity of the Federal Employees’ Compensation Act
(FECA), the Peace Corps OIG coordinated with the Peace Corps Office of Medical
Services (PC/OMS) and Office of Inspector General of the U.S. Department of Labor
(DOL/OIG) to investigate recipients. As part of our investigative effort, we have been
reviewing case files for each beneficiary of the FECA program, and following up with
background database reviews, including property verifications and site visits, to ensure
that the FECA program is utilized properly.

During this reporting period, we sent letters to over 1200 recipients reminding them to
report changes in their disability, current income, address, and other pertinent information
to the U.S. Department of Labor. In addition, letters were also sent to specific recipients
who we had reason to suspect of FECA violations. PC/OIG investigators also visited and
interviewed more than 35 active claimants in Districts 6 and 13. The following adverse
practices were identified:
    •   Recipients that did not live at the address provided to the Department of Labor.
    •   Claimants that moved out of the country; recipients that were working and
        receiving salaried wages but had not notified the Department of Labor.
    •   Recipients that were working and had notified the Department of Labor but
        continued to receive disability compensation benefits.
    •   A recipient whose dependent had passed away but had not notified Department of
        Labor to have his benefits reduced.

During the reporting period, the OIG also began undertaking field investigations of
FECA recipients with potential fraud indicators or other suspicious circumstances, such
as those with no or low medical costs but high compensatory benefits. In one field
investigation, the OIG discovered that a FECA recipient was employed in several part-
time positions without notifying the Department of Labor of her re-employment status.
With the assistance of PC/OMS, we informed the Department of Labor of the results of
our investigation, and the Department of Labor reduced this FECA recipient’s annual
benefit. As a result of the OIG’s efforts, cost savings to the Peace Corps over the life of
this claim totaled $574,104.


                          VIOLENT CRIMES AGAINST VOLUNTEERS

Overseas posts are required to report immediately to the OIG and RSO any incident of a
specified list of violent crimes against Volunteers. Early notification and response is
critical to a successful investigation and prosecution, which may assist in a victim’s
recovery, serve as a protective deterrent, and remove violent persons from society.




Semiannual Report to Congress      April 1, 2006 to September 30, 2006                     25
Incidents and crimes to be reported to the OIG and RSO are:
     •   Volunteer Death (under any circumstances)
     •   Kidnapping
     •   Rape and Attempted Rape
     •   Major Sexual Assault
     •   Robbery
     •   Aggravated Assault
     •   Major Physical Assault
     •   Burglary with Volunteer/Trainee present (or attempted)
     •   Death Threat
     •   Intimidation/Stalking (also Domestic Violence)

Crimes are reported to the OIG through telephone number 202-692-2911 or the crime
hotline violentcrimehotline@peacecorps.gov, from which the Inspector General and
investigative personnel receive notification on a 24/7 basis to assure prompt assistance
and coordination in their investigation. For overseas crimes, the OIG engages with the
Criminal Investigative Liaison Branch (CIL) of the Bureau of Diplomatic Security to
facilitate communications and support to the victim and to the Peace Corps post. During
the reporting period, approximately 203 preliminary inquiries were opened, which
resulted in the initiation of 25 investigations.

We have also established a dedicated law enforcement liaison line (911@peacecorps.gov)
for other federal and foreign law enforcement agencies to access OIG investigative
personnel on a 24/7 basis. This resource for coordination among law enforcement
agencies may be the first of its kind.

We have three investigators whose primary responsibility is to oversee the cases in one of
the agency’s three geographic overseas regions: Africa; Inter-America and Pacific; and
Europe, Mediterranean, and Asia. This allows them to develop closer coordination with
overseas counterparts and a better understanding of the characteristics of each country
and its criminal justice system. We have a fourth investigator who will oversee the
agency’s FECA initiatives.

Closed Cases of Violent Crime Against Volunteers

•    A Volunteer was attacked while jogging in an Eastern European country. The RSO
     was notified and, with the assistance of an OIG investigator, coordinated with the
     local police. A subject was arrested and the local courts sentenced him to a three-year
     prison term.

•    A Volunteer serving in a Central Asia country was the victim of a robbery. During
     the robbery, the two attackers attempted to throw the Volunteer off a bridge. The
     subjects were located by the local police, tried in local court, and convicted. One
     subject was sentenced to four years imprisonment. The accomplice was sentenced to
     a two-year suspended prison sentence.


26                                                       Peace Corps Office of Inspector General
•   As reported in the previous Semiannual Report, a Volunteer was the victim of a
    robbery in a Central Asian country. During this reporting period, the subject was
    tried and convicted by the local court and received a three-year suspended prison
    sentence and is serving a one-year of probation sentence.

•   In the Pacific region, a Volunteer was raped at knifepoint in her home. Three
    suspects were arrested; one suspect for rape and two suspects for “creeping” or
    voyeurism. The two suspects charged with creeping pled guilty and received
    sentences of two years and fifteen months, respectively. The rape suspect pled guilty
    and was sentenced to three years and eight months in prison.

•   In 2004, a Volunteer serving in the Caribbean was the victim of an attempted rape by
    a hotel security guard who entered her room while she slept. In August 2006, an OIG
    investigator accompanied the Volunteer victim and two Volunteer witnesses to testify
    at trial. The OIG investigator coordinated with the local prosecutor and the safety
    and security coordinator. The defendant was convicted of sexual abuse and sentenced
    to four years in prison.

•   In a rural community in a Central American country, a Volunteer was raped and
    robbed by her landlord and another individual. An OIG investigator coordinated with
    the RSO and the country director to obtain physical evidence and to follow up with
    local authorities. The OIG retained legal counsel to represent the victim. In April
    2006, the case went to a jury trial but the defendant was acquitted.

•   An OIG investigator provided forensic investigative support to the local police and
    the assistant RSO during the investigation of the accidental death of a two Volunteers
    in an African country. Four Volunteers were on a river in a catamaran when the steel
    mast struck a high voltage power line. Two Volunteers died, another Volunteer was
    severely injured, and the fourth Volunteer escaped injury. The deaths were deemed
    an accident.

•   Two Volunteers in an African country were attacked by an armed male and received
    injuries. One Volunteer was struck on the head and required six stitches to the scalp.
    Local police detained and questioned some individuals but no suspects were
    positively identified.

•   In a southwestern Africa country, a Volunteer was accosted by an unidentified male
    armed with a knife during a home invasion. The Volunteer resisted the assailant and
    received minor injuries. The Volunteer was treated at a local hospital and released.
    A suspect was apprehended but the Volunteer was unable to identify the assailant in a
    line-up.

•   In a coastal West African country, a Volunteer and two visiting family members were
    assaulted and robbed at a hotel by four armed perpetrators. The OIG with assistance
    from the RSO collected fingerprints and delivered the evidence to the FBI lab for
    latent print processing. A suspect was apprehended and his fingerprints were
    submitted to the FBI lab for comparison. The case was closed after the suspect’s
    fingerprints failed to match the latent print samples.


Semiannual Report to Congress     April 1, 2006 to September 30, 2006                    27
•    A Volunteer in a northern African country reported having been sexually abused by
     her language tutor. The Volunteer was medevaced to PC/Washington where, after
     receiving treatment and counseling, the Volunteer declined to prosecute the assailant.

•    A Volunteer reported a rape a month after its occurrence to Peace Corps staff. The
     Volunteer reported being harassed, chastised, and compelled to have sex with the
     village chief’s son. The Volunteer declined to prosecute.

Pending Cases of Violent Crime Against Volunteers

•    In a South American country, an OIG investigator coordinated with the RSO to locate
     and arrest the perpetrator of an attempted rape of a Volunteer that occurred in 2003.
     In February 2006, the RSO and local authorities arrested the subject, who was
     detained without bail. The OIG retained legal counsel to represent the victim in the
     case. An OIG investigator accompanied the Volunteer, who had subsequently left
     service, to the post to provide a legal deposition and to identify the suspect in a line-
     up. The public prosecutor initiated a formal investigation into the matter and filed
     formal charges against the subject for sexual coercion. Trial is pending.

•    In the Pacific region, a Volunteer was raped in her residence by a host country
     national. An OIG investigator coordinated with the Volunteer victim and the post to
     bring the case to trial. The OIG investigator accompanied the Volunteer to the
     preliminary hearing. The defendant was remanded to the Supreme Court for trial
     with an October 2006 trial date.

•    In the Pacific region, a case of an aggravated assault of a Volunteer that occurred in
     2005 was scheduled for trial in September 2006. The case was rescheduled and
     elevated to the Supreme Court due to the severity of the crime. An OIG investigator
     traveled to the post to coordinate with the prosecution lawyer, provide digital
     photographs of injuries, and coordinate with the safety and security coordinator to
     ensure a witness’s appearance at a pre-trial deposition. Trial is pending.

•    The case of a missing Volunteer in South America remains open. We continue to
     pursue investigative leads.

•    In Southeast Asia, a suspect was released pending trial for the sexual assault and
     robbery of a Volunteer. The Volunteer, who has subsequently left service, shows
     continued high interest in prosecuting the subject.

•    The accused in a case of sexual assault against a Volunteer in central Africa remains
     in custody awaiting trial. The Volunteer, who has subsequently left service, was
     accompanied back to the country for a preliminary hearing and a trial date is pending.

•    In northwest Africa, a Volunteer suffered a fractured arm during a rape by two men.
     The two suspects were subsequently apprehended, but one escaped from local police
     custody and was sentenced in absentia. The fugitive was recaptured, appealed his




28                                                        Peace Corps Office of Inspector General
    sentence, and is waiting to be retried. The Volunteer, who has subsequently left
    service, will return to the country with an OIG investigator for the trial.
•   The homicide of a Volunteer in Africa several years ago remains an open case with
    the OIG, the RSO, and the FBI. The Peace Corps program in the country has been
    closed, but the OIG continues to coordinate with both law enforcement agencies and
    the local authorities to seek justice in the case and the return of personal effects of the
    decedents to the family.


             TITLE 18 CRIMINAL AND OTHER INVESTIGATIONS CONDUCTED

Investigations Leading to Disposition

•   Two Peace Corps employees were the subject of an investigation in which they
    defrauded the Federal Employee Health Benefits Program. One employee agreed to
    repay the government $1,000. The second employee entered into the U.S.
    Department of Justice’s pre-trial diversion program, agreed to pay restitution of
    $7,125.68 to the U.S. government, and will perform 40 hours of community service.
    Both employees voluntarily terminated their employment with Peace Corps.

•   During the last reporting period, we began an investigation of a Volunteer serving in
    Central Asia who was alleged to have misappropriated federal money from a grant
    program. During our investigation, the Volunteer confessed to embezzling $766.13
    from the grant program. Restitution was made and the Volunteer pled guilty to
    misdemeanor embezzlement through the United States Attorney’s Office in his home
    of record.

•   An unannounced cash count at Peace Corps headquarters revealed a $500.00 shortage
    in the cashier’s imprest fund. OIG investigated the loss and the employee
    subsequently tendered her resignation.

•   In the Pacific Region, a former host country national employee began restitution
    payments for the unauthorized use of a Peace Corps-issued phone card. The former
    employee had incurred a significant debt after terminating service, and agreed to
    make restitution payments until the debt is paid off. The Peace Corps recovered $300
    during this reporting period.

•   The OIG and the RSO investigated a report of a Volunteer having sexual contact with
    multiple young males. The Volunteer acknowledged having sexual contact with the
    young males, but indicated that all were over the age of 18. The Volunteer
    terminated his service. The investigation was declined for prosecution for lack of
    probable cause.

•   In a southeastern African country, an OIG investigation of missing diesel fuel from
    the post’s motor pool reaffirmed findings initially disclosed by the RSO. The
    investigation also detected patterns of fraudulent activities in the motor pool that


Semiannual Report to Congress       April 1, 2006 to September 30, 2006                      29
     existed over a two-year period. Inconsistencies found in motor pool records, along
     with testimony from a confidential source that identified persons, places, and means
     of theft, provided the OIG evidence that fraudulent activity has existed in the Peace
     Corps’ motor pool operations and employee and operational changes are warranted.
     Several of the local employees were terminated from service.

•    In the Caribbean, an OIG investigation confirmed that a Volunteer engaged in sexual
     conduct with a host country national under the age of 18, in violation of 18 USC
     2423. An OIG investigator provided information on the case to an Assistant United
     States Attorney at the Volunteer’s home of record, who declined to prosecute this
     matter. The Volunteer resigned from service.

•    In May 2006, the OIG was notified of possible marijuana use by Volunteers serving
     in Central Asia. It was alleged that four local staff members had known about the
     marijuana use, yet had not informed the post’s management staff. As a result of our
     investigation, 16 Peace Corps Volunteers resigned. Of the four host country staffers
     implicated in the incident, two were verbally reprimanded and reminded of their
     reporting duties, one received a written reprimand, and the fourth staff member
     resigned.

•    A Volunteer in a Central Asian country was the victim of an assault. While filing a
     police report, the local police noticed that the Volunteer was in the company of a host
     country national minor. An investigation of a potential Protect Act violation was
     initiated by the OIG, Diplomatic Security Service, and Immigration and Customs
     Enforcement’s Cyber Crimes Center, Child Exploitation Section. However, due to
     limited evidence and no indication that sex was ever exchanged for compensation, the
     matter was closed. Shortly after receiving notification of the accusation, the
     Volunteer resigned from the Peace Corps.

•    An investigation was opened during the last reporting period regarding a former
     Volunteer’s application for benefits under FECA. The Volunteer’s FECA claim was
     determined to lack merit, and the Department of Labor denied the Volunteer’s claim.
     The investigation was closed.

•    OIG investigated a host country national employee in a South Asian country who was
     accused of using her position within the Peace Corps to operate a prostitution
     business. The informant's claim was jointly investigated by the RSO, the OIG, and
     the FBI. The investigation found no credible evidence to support the primary claim;
     however, the employee was found to have committed minor administrative violations.
     The employee was officially reprimanded and later resigned citing non-related
     reasons.

•    OIG continued its investigation into an ethics complaint against Peace Corps
     management in a Central Asian country. The informant subsequently denied making
     the allegations and did not provide any additional information to substantiate earlier
     claims. OIG and the U.S. Department of State will continue to monitor this issue.
     We closed the ethics complaint.



30                                                       Peace Corps Office of Inspector General
•   A contractor at Peace Corps headquarters was alleged to have sent inappropriate
    electronic mail from an agency account using a Peace Corps computer. The
    investigation found that the contractor was in violation of agency policies governing
    electronic mail and the use of government equipment, as well as the Standards of
    Ethical Conduct. The contractor received verbal counseling by his supervisor.

•   OIG received an anonymous complaint alleging that a Peace Corps headquarters
    employee was allowed by their supervisor to attend training outside of the
    Washington, D.C. area and that the employee took annual leave in conjunction with
    the training. The investigation revealed no problems associated with the training or
    the employee’s use of annual leave.

Pending Investigations

•   The investigation of a Volunteer who allegedly raped two fellow Volunteers while
    serving in Eastern Europe is ongoing. OIG investigators are currently working with a
    number of police departments around the United States to gather additional evidence.

•   The OIG continues to work with the U.S. Embassy, Peace Corps management, and a
    locally retained lawyer to prosecute and receive restitution relating to theft of internet
    services from a Peace Corps office in eastern Africa. This is the first case of this type
    in this country. Peace Corps is seeking restitution of approximately $6,000. The
    subject is a former host country national Peace Corps employee who is suspected of
    allowing persons to fraudulently access the internet at Peace Corps’ expense.

•   A Peace Corps employee was alleged to have committed ethics and criminal conflict
    of interest statute violations, 18 USC 205 and 208. The OIG conducted interviews of
    persons that were believed to have direct knowledge of the alleged activities. The
    investigation disclosed that the employee committed several violations of the
    Standards of Ethical Conduct for Federal Employees, as well as violations of the
    Peace Corps Manual. The agency’s disciplinary action is pending.

•   In a southeastern African country, a joint investigation by the OIG and the RSO
    resulted in the arrest of a locally hired cashier for the theft of more than $9,000. The
    case is awaiting trial.

•   In a South American country, a Volunteer engaged in sexual relations with a host
    country national under the age of 18, in violation of 18 USC 2423. An OIG
    investigator conducted interviews of multiple witnesses in country and subsequently
    interviewed the suspect with a DHS-ICE agent and obtained a confession. The OIG
    and ICE agents met with the Assistant United States Attorney Chief of the Criminal
    Division in the former Volunteer’s home of record, who determined that he would not
    seek to prosecute the former Volunteer. The United States Attorney’s Office is
    preparing to seek a grand jury indictment.




Semiannual Report to Congress       April 1, 2006 to September 30, 2006                    31
                                         TABLES
                                 TABLE 1

     LIST OF REPORTS: AUDITS, EVALUATIONS AND INSPECTIONS


        Benin: Audit

        Dominican Republic: Audit

        Federated States of Micronesia: Audit

        Mid-Atlantic Recruitment Office: Audit

        Romania: Audit

        Travel Policies and Procedures: Audit

        Turkmenistan: Audit

        East Timor: Follow-up Audit

        Zambia: Audit and Program Evaluation

        Botswana: Program Evaluation

        Counterpart: Best Practices Study

        Georgia: Best Practices Study

        Honduras: Best Practices Study

        Malawi: Best Practices Study

        Mauritania: Best Practices Study

        Niger: Best Practices Study

        Panama: Best Practices Study

        Paraguay: Best Practices Study

        Philippines: Best Practices Study

        Ukraine: Best Practices Study




32                                               Peace Corps Office of Inspector General
                                         TABLE 2

                    REPORTS ISSUED WITH COSTS QUESTIONED
                        OR FUNDS PUT TO BETTER USE




                                                                   VALUE       NOTE

Audit of Peace Corps/Dominican Republic                        $    5,300.00     1

Audit of Peace Corps/Turkmenistan                              $152,486.00       2

Audit of Peace Corps/Zambia                                    $109,017.48       3

Management Alert Report/Mozambique                             $138,000.00       4

Audit of Peace Corps/Micronesia                                $ 11,617.55       5

Audit of Peace Corps/Benin                                     $ 62,442.00       6

Audit of Travel Policies and Procedures                        $ 27,695.90       7


Total of Reports Issued with Costs Questioned or               $506,558.93
Funds Put to Better Use


 Note:
 1. Discontinued use of appropriated funds for unallowed expenditures. Costs incurred for not
    selling disposable items.
 2. Uncollected host country contributions. Offsetting of VAT rebate in operating plan.
 3. Inappropriate use of PEPFAR monies and other funds. Unallowable expenditures charged to
    appropriated use.
 4. Unallowable use of PEPFAR funds.
 5. Imprest fund losses, duplicate payments made, uncollected bill of collection, and recovered
    imprest fund shortages.
 6. Losses to the imprest fund of $12,600. Uncollected host country contributions of $44,000.
    Discontinued use of appropriated funds for unallowable expenditures. Uncollected travel
    advances.
 7. Unused tickets not submitted to SatoTravel for reimbursement. Offset of business class vs.
    coach airline transportation.




Semiannual Report to Congress       April 1, 2006 to September 30, 2006                      33
                                           TABLE 3

       STATUS OF REPORTS ISSUED BY OIG WITH QUESTIONED COSTS


                                                      NUMBER OF
                                                                            VALUE
                                                       REPORTS
A.   Reports issued prior to this period                    1            $138,000.00

     For which no management decision had been              0
     made on any issue
     For which some decisions had been made on              0
     some issues
B.   Reports issued during the period                       3             $96,433.38

     TOTAL OF CATEGORIES A AND B                            4            $234,433.38
C.   For which final management decisions were
     made during this period
     (i) Costs allowed                                      4            $144,796.94
     (ii) Costs disallowed                                  3             $89,636.44
D.   For which no management decisions were
                                                            0
     made during the period
E.   For which management decisions were made
                                                            0
     on some issues during the period
     TOTAL OF CATEGORIES C, D, AND E                        4            $234,433.38




34                                                   Peace Corps Office of Inspector General
                                        TABLE 4

  STATUS OF REPORTS ISSUED BY OIG WITH FUNDS PUT TO BETTER USE


                                                            NUMBER OF      VALUE
                                                             REPORTS
 A.    Reports issued prior to this period                        0          0

       For which no management decision
                                                                  0          0
       had been made on any issue

       For which some decisions had been
                                                                  0          0
       made on some issues

 B.    Reports issued during the period                           6      $272,125.55

       TOTAL OF CATEGORIES A AND B                                6      $272,125.55

       For which final management decisions
 C.                                                               6      $272,125.55
       were made during the period

       For which no management decisions
 D.                                                               0          0
       were made during the period

       For which management decisions
 E.    were made on some issues during the                        0          0
       period

       TOTAL OF CATEGORIES C, D, AND E                            6      $272,125.55




Semiannual Report to Congress      April 1, 2006 to September 30, 2006                 35
                                           TABLE 5

                  REPORTS WITH RECOMMENDATIONS ON WHICH
                 CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                         RECOMMENDATIONS OPEN 60 DAYS OR MORE
                                                                        NUMBER OF OPEN
REPORT                                                 DATE ISSUED
                                                                        RECOMMENDATIONS
Zambia: Audit                                             6/5/06                    4
Travel Policies and Procedures: Audit                     6/27/06                  12
Romania: Audit                                            7/17/06                   5
East Timor: Follow-up Audit                               7/17/06                   2
                         RECOMMENDATIONS OPEN 120 DAYS OR MORE
                                                                        NUMBER OF OPEN
REPORT                                                 DATE ISSUED
                                                                        RECOMMENDATIONS
Benin: Audit                                              5/18/06                   5
FISMA                                                     5/22/06                   8
                       RECOMMENDATIONS OPEN 180 DAYS OR MORE *
                                                                        NUMBER OF OPEN
REPORT                                                 DATE ISSUED
                                                                        RECOMMENDATIONS
Gap Analysis                                            10/15/2004                  9
FY 04 Agency Financial Statements: Audit                11/15/2004                 50
Samoa: Follow-up Audit                                   12/9/2004                  4
Armenia: Audit and Program Evaluation                    2/1/2005                   1
Audit of the Safeguarding of Social Security Numbers     3/4/2005                   3
Dominican Republic: Evaluation                           4/15/2005                  1
Kiribati: Audit and Program Evaluation                   7/1/2005                   2
Kenya: Follow-up Evaluation                              8/30/2005                  5
Jamaica: Audit                                           9/20/2005                  1
Uganda: Audit                                            9/21/2005                  3
FY 05 Agency Financial Statements: Audit                11/15/2005                 37
Namibia: Audit                                           12/9/2005                  8

  * WE HAVE ENTERED RECOMMENDATIONS INTO OUR NEW SYSTEM ONLY SINCE OCTOBER 1, 2004.




36                                                        Peace Corps Office of Inspector General
                                               TABLE 6

                         SUMMARY OF INVESTIGATIVE ACTIVITY


 CASES                                                                 NUMBER     VALUE
 Cases Opened as of 4/1/06                                                  80
 Cases Opened during 4/1/05 – 9/30/06                                       27
 Cases Closed that were previously Opened                                   53
 Cases Open and Closed during 4/1/06 – 9/30/06                              10
 Total Open Cases as of 9/30/06                                             54
 Referrals for Prosecution                                                  3
 Referrals for Agency Administration Action                                 3
 Referrals to Other Agency                                                  1
 COURT ACTIONS*
 Prosecutions                                                               0
 Convictions                                                                0
 Suits                                                                      0
 Judgments                                                                  0
 Fines/Restitution                                                          0
 MONETARY RESULTS
 Savings                                                                    0
 Recoveries/Restitution                                                     3      $7,426
 Cost Avoidance                                                             1    $574,104
 ADMINISTRATIVE ACTIONS
 Employees                                                                  2
 Other Persons/Businesses                                                   0
* Court actions reflect violations of U.S. law prosecuted in U.S. Courts.




Semiannual Report to Congress            April 1, 2006 to September 30, 2006                37
                                          TABLE 7

                SUMMARY OF HOTLINE AND OTHER COMPLAINTS


 Complaints Received                                                 38
 Complaints Closed                                                   8
 Awaiting OIG Action                                                 0
 Resulted in Investigations                                          5
 Resulted in Audits                                                  0
 Resulted in Evaluations                                             0
 Referred to Agency Management                                       23*
 Referred to Other Agency                                            0
 No Action Needed                                                    2

* Sixteen of these complaints were regarding one issue.




38                                                        Peace Corps Office of Inspector General
                                         TABLE 8

                 REFERENCES TO REPORTING REQUIREMENTS OF
                       THE INSPECTOR GENERAL ACT


The Inspector General Act of 1978, as amended, specifies reporting requirements for
semiannual reports to Congress. The requirements are listed below and indexed to the
applicable page.


 ACT REFERENCE                       REPORTING REQUIREMENTS                         PAGE
  Section 4(a)(2)      Review of legislation and regulations                        None
  Section 5(a)(1)       Significant problems, abuses, and deficiencies              4-23
  Section 5(a)(2)       Significant recommendations for corrective actions          4-23
  Section 5(a)(3)      Prior significant recommendations on which corrective
                                                                                     36
                       action has not been completed
  Section 5(a)(4)      Matters referred to prosecuting authorities                  29-31
  Section 5(a)(5)      Summary of instances where information was refused           None
  Section 5(a)(6)      List of audit reports, including evaluations, inspections,
                                                                                     32
                       and reviews
  Section 5(a)(7)      Summary of significant reports                               7-23
  Section 5(a)(8)      Statistical table – questioned costs                          34
  Section 5(a)(9)      Statistical table – funds to be put to better use             35
  Section 5(a)(10)     Summary of previous audit reports without management
                                                                                    None
                       decisions
  Section 5(a)(11)      Significant revised management decisions                    None
  Section 5(a)(12)     Significant management decisions with which the
                                                                                    None
                       Inspector General disagrees
  Section 5(a)(13)     Information under Federal Financial Management
                                                                                    None
                       Improvement Act of 1996




Semiannual Report to Congress       April 1, 2006 to September 30, 2006                     39
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or write
the Office of Inspector General.




                                        Call

                  202-692-2900     or    800-233-5874 (toll free)

                  For violent crime notifications – 202-692-2911



Write

        Peace Corps               or             Peace Corps
        Attn: Inspector General                  Attn: Inspector General
        1111 20th Street, N.W.                   P.O. Box 57129
        Washington, DC 20526                     Washington, DC 20036-9998



                                        Email

                              oig@peacecorps.gov

                          For violent crime notifications:

                       violentcrimehotline@peacecorps.gov




Information received is held in confidence to the maximum feasible extent.
